                                                                 Issue Date
                                                                    September 27, 2007
                                                                 Audit Report Number
                                                                    2007-PH-1013




TO:         Dennis G. Bellingtier, Director, Office of Public Housing, Pennsylvania State
             Office, 3APH


FROM:       John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
             Office, 3AGA

SUBJECT: The Harrisburg Housing Authority, Harrisburg, Pennsylvania, Did Not Properly
          Administer Its Low-Rent Public Housing Program


                                   HIGHLIGHTS

 What We Audited and Why

           We audited the Harrisburg Housing Authority’s (Authority) low-rent public housing
           program. The audit was conducted as part of our fiscal year 2006 annual audit plan.
           Our objective was to determine whether the Authority administered its low-rent
           public housing program in accordance with U.S. Department of Housing and Urban
           Development (HUD) regulations.

 What We Found


           The Authority did not administer its low-rent public housing program in accordance
           with HUD regulations. It improperly disbursed $834,969 in operating funds from
           its low-rent public housing program to open and support the Greater Harrisburg
           Community Credit Union (credit union) and allowed a related conflict-of-interest
           situation to exist. The Authority’s noncompliance occurred because it believed that
           its use of operating funds and consulting contract arrangements for the credit union
           was proper.
What We Recommend


           We recommend that HUD review the issues in this report and if appropriate,
           initiate action to declare the Authority in substantial default of its consolidated
           annual contributions contract and take appropriate administrative action as
           detailed in section 17 (Notices, Defaults, and Remedies) of the contract.

           We recommend that HUD direct the Authority to

             •   Repay its low-rent public housing program $834,969 from nonfederal funds
                 for the ineligible disbursements related to the credit union;

             •   Develop and implement controls to ensure that disbursements of operating
                 funds are eligible and supported; and

             •   Develop and implement controls to detect, prevent, and resolve future
                 conflict-of-interest situations.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the initial draft audit report to the Authority on July 27, 2007. We
           discussed the draft report with the Authority at an exit conference on August 8,
           2007, and provided it with a revised draft report on August 16, 2007. The
           Authority provided its written comments on August 22, 2007. The Authority
           disagreed with the report. The complete text of the Authority’s response, along
           with our evaluation of that response, can be found in appendix B of this report.




                                              2
                           TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding: The Authority Improperly Used Public Housing Operating Funds and   5
      Allowed a Conflict-of-Interest Situation to Exist

Scope and Methodology                                                             8

Internal Controls                                                                 9

Appendixes
   A. Schedule of Questioned Costs                                                11
   B. Auditee Comments and OIG’s Evaluation                                       12




                                           3
                      BACKGROUND AND OBJECTIVES

The Harrisburg Housing Authority (Authority) was established in 1938 under the Housing
Authority Law of the Commonwealth of Pennsylvania to serve the needs of low-income, very
low-income, and extremely low-income families in the City of Harrisburg and to (1) maintain the
availability of decent, safe and affordable housing in its communities; (2) ensure equal
opportunity in housing; (3) promote self-sufficiency and asset development of families and
individuals; and (4) improve community quality of life and economic viability. A five-member
board of commissioners governs the Authority. The commissioners serve five-year terms on the
board. The executive director of the Authority during the audit was Carl Payne. The Authority’s
main administrative office is located at 351 Chestnut Street, Harrisburg, Pennsylvania.

The Authority owns and manages 1,730 low-rent public housing units under its consolidated annual
contributions contract with HUD. The consolidated annual contributions contract defines the terms
and conditions under which the Authority agrees to develop and operate all projects under the
contract. HUD authorized the Authority the following operating subsidies from 2004 to 2006:

                                     Amount of
                                  operating subsidy
                            Year     authorized
                            2004     $ 7,680,083
                            2005     $ 8,403,302
                            2006     $ 8,870,810
                            Total    $24,954,195

The Authority was integral in the creation, operation, and financing of the Greater Harrisburg
Community Credit Union (credit union). The credit union was opened for business in April 2001
and was closed by the National Credit Union Administration in February 2006 because it was
insolvent and had no prospects of restoring viable operations. The president and chief executive
officer of the credit union was Carl Payne. The credit union was located at 223 Walnut Street,
Harrisburg, Pennsylvania.

Our objective was to determine whether the Authority administered its low-rent public housing
program in accordance with HUD regulations.




                                                4
                                     RESULTS OF AUDIT

Finding: The Authority Improperly Used Public Housing Operating
Funds and Allowed a Conflict-of-Interest Situation to Exist
The Authority violated its consolidated annual contributions contract and federal regulations by
improperly disbursing $834,969 in low-rent public housing operating funds to open and support
the Greater Harrisburg Community Credit Union (credit union) and allowing a related conflict-
of-interest situation to exist. This noncompliance occurred because the Authority believed that
its use of operating funds and its consulting contract with one of its employees for the benefit of
the credit union were proper. The consolidated annual contributions contract 1 limits the use of
funds provided under the contract to paying only costs related to the operation of the projects
under the contract. Federal regulations 2 prohibit contributions, including cash, regardless of
recipient. The consolidated annual contributions contract 3 also prohibits conflict-of-interest
situations involving contracts with employees. Therefore, the Authority’s disbursements of
operating funds for the benefit of the credit union were ineligible.



    The Authority Improperly Used
    Operating Funds


                 The Authority improperly disbursed $834,969 in low-rent public housing
                 operating funds to open and support a credit union. It made 10 lump sum
                 contributions to the credit union totaling $485,000 from August 2001 to April
                 2005. In addition to the lump sum contributions, the Authority disbursed
                 $349,969 in HUD funds, from January 1998 to August 2005, to pay various
                 expenses related to the credit union. The following paragraphs provide details.

                         Lump sum contributions – The Authority made 10 lump sum contributions
                         to the credit union totaling $485,000 from August 2001 to April 2005. It
                         made the disbursements to cover the credit union’s National Credit Union
                         Administration net worth requirements and to meet income goals reflected
                         in a revised business plan. The Authority’s executive director was also the
                         president and chief executive officer of the credit union during this period.

                         Consulting fees – From January 1998 to May 2001, the Authority paid a
                         consultant $132,960 to establish and manage the day-to-day operations of
                         the credit union. In November 2000, the consultant became an employee
                         of the Authority and as a result, caused a prohibited conflict-of-interest


1
  Part A, section 9(C).
2
  Office of Management and Budget Circular A-87, attachment B, section 12, paragraph a.
3
  Part A, section 19(A).


                                                       5
                    situation to occur (this issue is discussed in further detail at the end of this
                    finding).

                    Operating expenses – From November 2000 to June 2001, the Authority
                    disbursed $67,628 for the credit union’s operating expenses. These
                    expenses included payments for office remodeling, radio grand opening
                    promotions, rental of a stage and table cloths, and elementary school
                    students’ artwork.

                    Employee salaries – The Authority intermittently disbursed $52,246, from
                    January 2001 to July 2004, for salaries of three nonmanagerial employees
                    of the credit union.

                    Employee insurance – The Authority disbursed $97,135 to provide
                    insurance benefits to six credit union employees from May 2001 to June
                    2006.

             These improper disbursements occurred because the Authority lacked policies and
             procedures to ensure that disbursements complied with the terms of its
             consolidated annual contributions contracts and applicable regulations. The
             Authority’s executive director, who was also the president and chief executive
             officer of the credit union, incorrectly believed that the use of operating funds for
             the credit union was eligible. However, the Authority’s consolidated annual
             contributions contract limits the use of funds provided under the contract to
             paying only costs related to the operation of the projects under the contract.
             Further, federal regulations prohibit contributions or donations, including cash,
             regardless of recipient. Since these disbursements did not result in any benefit to
             the low-rent public housing program, the $834,969 disbursed was ineligible. The
             Authority needs to reimburse its low-rent public housing program for the
             ineligible disbursements and develop and implement controls to ensure that
             disbursements of operating funds are eligible and supported.


The Authority Allowed a
Conflict-of-Interest Situation to
Exist


             The Authority’s executive director violated the consolidated annual contributions
             contract’s conflict-of-interest restrictions by improperly receiving consulting fees
             for his work with the credit union (paid by the Authority as reported above) and a
             salary as an employee of the Authority. From November 2000 to May 2001, the
             executive director received $17,500 for consulting services while receiving a
             salary from the Authority totaling $33,520. The consolidated annual
             contributions contract prohibits the Authority from entering into any contract or
             arrangement in connection with any project under the contract with any Authority



                                               6
          employee who formulates policy or who influences decisions with respect to the
          project(s). Employees must disclose their interest or prospective interest to the
          Authority and HUD. While HUD can waive this requirement for good cause,
          neither the executive director nor the board disclosed this situation to HUD.
          Although the Authority’s board of commissioners was aware of the situation, it
          took no action to resolve it. In addition, as noted above, the Authority’s executive
          director was also the president and chief executive officer of the credit union.
          During the executive director’s concurrent tenures, the Authority improperly
          disbursed low-rent public housing operating funds to benefit the credit union.
          This continued the conflict-of-interest situation although the Authority was no
          longer paying the executive director as a consultant to the credit union. The
          Authority did not inform HUD of these disbursements nor did it request HUD’s
          approval before making them.

          The Authority needs to develop and implement controls to detect, prevent, and
          resolve conflict-of-interest situations.

Recommendations

          We recommend that the director of the Office of Public Housing, Pennsylvania
          State Office

          1A.     Review the issues in this report and if appropriate, initiate action to
                  declare the Authority in substantial default of its consolidated annual
                  contributions contract and take appropriate administrative action as
                  detailed in section 17 (Notices, Defaults, and Remedies) of the contract.

          We recommend that the director of the Office of Public Housing, Pennsylvania
          State Office, direct the Authority to

          1B.     Repay its low-rent public housing program $834,969 from nonfederal
                  funds for the ineligible disbursements related to the credit union.

          1C.     Develop and implement controls to ensure that disbursements of operating
                  funds are eligible and supported.

          1D.     Develop and implement controls to detect, prevent, and resolve future
                  conflict-of-interest situations.




                                           7
                         SCOPE AND METHODOLOGY

We performed the audit at the Authority in Harrisburg, Pennsylvania, from October 2006 through
August 2007. The audit was performed in accordance with generally accepted government auditing
standards and included tests of internal controls that we considered necessary.

The audit covered transactions representative of operations current at the time of the audit and
included the period January 2004 through September 2006. We expanded the scope of the audit as
necessary. During the audit, we assessed the reliability of computer-processed data relevant to
our audit by comparing the data to hard-copy information. We found the computer-processed
data were sufficiently reliable to meet our audit objectives.

To accomplish our objectives, we

   •   Reviewed applicable HUD and federal regulations and guidance.

   •   Reviewed the Authority’s consolidated annual contributions contract with HUD.

   •   Reviewed the Authority’s internal control structure.

   •   Reviewed the Authority policies and procedures.

   •   Discussed operations with the Authority’s management and staff and key officials from
       HUD’s Philadelphia, Pennsylvania, field office.

   •   Reviewed minutes of the Authority’s board of commissioners’ meetings for years 2004
       through 2006.

   •   Reviewed the Authority’s audited financial statements for years 2003 through 2005; other
       financial records including general ledgers, bank statements, and check registers; and
       supporting documentation as appropriate.

   •   Reviewed the Authority’s annual and five-year plans for its fiscal years 2002 through
       2008.




                                                 8
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •   Policies, procedures, and controls that management has implemented to ensure
                  that the Authority administered its low-rent public housing program in
                  accordance with HUD and federal regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              The Authority did not

              •   Ensure that disbursements of operating funds were eligible and supported.

              •   Detect, prevent, and resolve conflict-of-interest situations.




                                                9
Separate Communication of
Minor Deficiencies


           Minor internal control and compliance issues were reported to the Authority by a
           separate letter dated August 16, 2007.




                                            10
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS


                           Recommendation         Ineligible 1/
                                  number
                                      1B           $834,969


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.




                                            11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 2




                         12
Comment 3




            13
Comment 4
Comment 5
Comment 6




Comment 7


Comment 8




            14
Comment 9




            15
Comment 10




Comment 11




             16
Comment 11




Comment 12




             17
Comment 12




             18
Comment 13




             19
Comment 14




Comment 15




             20
Comment 16




Comment 17




Comment 18




             21
Comment 19




Comment 20




             22
Comment 21




Comment 22




             23
Comment 23



Comment 24




             24
Comment 8




            25
Comment 8




            26
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority stated that it is responding to the draft audit report which we
            provided it on August 16, 2007. However, in the latter part of its reply the
            Authority also included several pages of comments addressing a minor finding
            reported in a separate letter to the Authority. We reported this minor finding in a
            separate letter and did not request a written response due to the relatively small
            dollar amount involved and because the Authority had begun to take action to
            correct this matter during the audit. Nevertheless, at the Authority’s request we
            have included all of its comments, including those related to the minor finding, in
            their entirety.

Comment 2   The Authority incorrectly paraphrases the report by stating that we concluded
            expenditures made by the Authority to “carry out services to its residents” were
            ineligible. The audit report actually states that the Authority violated its
            consolidated annual contributions contract and federal regulations by improperly
            disbursing $834,969 in low-rent public housing operating funds to open and
            support the credit union and allowing a related conflict-of-interest situation to
            exist. This is an important correction to note because the audit actually found
            insufficient evidence to show that any of the questioned expenditures were used to
            carry out any services to its residents. This is why we also cited Office of
            Management and Budget Circular A-87 which prohibits contributions, including
            cash, regardless of recipient. As stated in the report, the consolidated annual
            contributions contract prohibits conflict-of-interest situations involving contracts
            with employees also making the disbursements for the benefit of the credit union
            ineligible.

Comment 3   The Authority’s assertions that we incorrectly narrowed the scope of these
            definitions is incorrect. The Authority incorrectly asserts that we concluded
            expenditures were ineligible simply because they were not spent on the actual
            bricks and mortar or direct operation of the dwellings themselves. This is not
            stated in the report and this was not our conclusion. On the contrary, we agree
            that Section 2 of the consolidated annual contributions contract does in fact state
            that the term “project” includes all real and personal property, tangible and
            intangible, which is acquired or held by the Authority in connection with a project
            under the consolidated annual contributions contract. Further, Section 3(c)(2) of
            the Act states that the term “operation” also means the financing of tenant
            programs and services for families residing in low-income housing projects.
            However, the audit showed that Authority officials disbursed $834,969 in low-
            rent public housing operating funds to operate and support a credit union which
            was not connected in any way to the operations of the projects under its
            consolidated annual contributions contract.

Comment 4   The audit was performed in accordance with generally accepted government
            auditing standards and the conclusions in the report are supported by relevant and
            substantial evidence documented in the audit workpapers. As such, the audit team



                                             27
            collectively possessed adequate professional proficiency for the tasks required
            and was properly supervised. The audit team properly took into account the
            annual contributions contract, the Act, and the regulations, notices, and guidance
            implementing the Act.

Comment 5   The full text of Section 4 of the consolidated annual contributions contract states
            that the Authority shall at all times develop and operate each project solely for the
            purpose of providing decent, safe, and sanitary housing for eligible families in a
            manner that promotes serviceability, economy, efficiency, and stability of the
            projects, and the economic and social well-being of the tenants. In this regard, the
            audit found insufficient evidence to show that the Authority used $834,969 to
            develop and operate its projects for the purpose of providing decent, safe, and
            sanitary housing for eligible families or in a manner that promoted serviceability,
            economy, efficiency, and stability of its projects, and the economic and social
            well-being of its tenants.

Comment 6   As discussed previously, the audit showed that Authority officials disbursed low-
            rent public housing operating funds to operate and support a credit union which
            was not connected to the projects under its consolidated annual contributions
            contract. Notwithstanding this fact, Section 3(c)(2) of the Act also states that to
            the maximum extent available and appropriate, existing public and private
            agencies in the community shall be used for the provision of such services.

Comment 7   Section 13 of the Act allows a public housing agency, in accordance with the
            public agency plan, to form and operate wholly-owned or controlled subsidiaries
            and other affiliates. However, Section 13 does not authorize the use of public
            housing funds for such purposes. The Act also specifically states that the
            Inspector General of the Department of Housing and Urban Development may
            conduct an audit of any of these activities at any time. Accordingly, our audit
            showed the Authority’s public agency plan which was approved by HUD did not
            disclose that it intended to use HUD funds for the activities of the credit union.
            Further the audit also found insufficient evidence to show that any of the
            questioned expenditures were used to carry out services to its public housing
            residents.

Comment 8   The Authority provided no solid or credible evidence that the credit union
            benefited public housing residents. The Authority estimated credit union
            membership solely on census data which was not sufficient to justify the
            disbursements. Further, as stated previously, the Authority’s public agency plan
            which was approved by HUD did not disclose that it intended to use HUD funds
            for the activities of the credit union. We did not ignore the circumstantial
            evidence the Authority provided. On the contrary, we evaluated the
            circumstantial evidence the Authority provided and concluded it was not
            sufficient to demonstrate the eligibility of expenditures under the terms of the
            Authority’s consolidated annual contributions contract.




                                             28
                 In the Authority’s attachment to its reply (Exhibit 1) it estimated that the credit
                 union serviced only 106 public housing residents. Even if we were to accept the
                 Authority’s circumstantial evidence based solely on census data, this would mean
                 it supported about 6 percent 4 of the Authority’s 1,730 public housing units at a
                 cost of almost $8,000 in public housing funds 5 for each resident who purportedly
                 belonged to the credit union. The Authority’s estimate would also indicate that
                 less then 10 percent 6 of the credit union’s clients resided in public housing even
                 though all of the credit union members were supported with significant amounts
                 of public housing funds. The credit union was not located near the majority of its
                 public housing residents and membership in the credit union was open to anyone
                 who lived, worked, worshipped, or volunteered within the city. Membership was
                 also open to businesses, associations, and other organizations that maintained
                 facilities in the city. Lastly, our review of minutes from the Authority’s board of
                 commissioner’s meetings showed that at least two of the Authority’s board
                 members expressed concerns regarding the propriety of using public housing
                 funds to operate and support this credit union.

Comment 9        We did not conclude, as the Authority asserts, that a housing agency must
                 retroactively verify the benefit received by public housing residents. Rather, we
                 requested the Authority provide documentation supporting specific disbursements
                 of public housing funds it made and our review of that documentation showed the
                 purpose of the expenditure was not eligible under the terms of the consolidated
                 annual contributions contract. While the audit found the Authority’s usage of
                 low-rent public housing funds was not in accordance with its annual contributions
                 contract it is important to note that HUD does in fact require actual benefits for
                 supportive services. HUD requires performance measures and goals for
                 supportive services. As an example, HUD’s Supportive Housing Program is
                 designed to develop supportive housing and services that will allow homeless
                 persons to live as independently as possible. Specific performance measures are
                 established based on the needs and characteristics of the homeless population to
                 be served. Grant recipients are required to monitor their clients' progress in
                 meeting their performance measures on an ongoing basis. In addition to
                 recordkeeping and evaluation that grantees may conduct for their own purposes,
                 HUD in fact requires recordkeeping and annual progress reports for supportive
                 services.

Comment 10 The audit showed that Authority officials disbursed $834,969 in low-rent public
           housing operating funds to operate and support a credit union which was not
           connected in any way to the operations of the projects under its consolidated
           annual contributions contract. Since these expenses were ineligible we also cited
           Office of Management and Budget Circular A-87 which prohibits contributions,

4
  Highest estimated membership of 106 public housing members/1,730 public housing units = 6.1 percent.
5
  $834,969 in public housing funds expended on the credit union/ highest estimated membership of 106 public
housing members = $7,877 per member.
6
  Highest estimated membership of 106 public housing members/ highest total credit union membership of 1,115
members = 9.5 percent of public housing residents.


                                                      29
              including cash, regardless of recipient. Section 13 of the Act does allow a public
              housing agency, in accordance with the public agency plan, to form and operate
              wholly-owned or controlled subsidiaries and other affiliates. However, it does not
              authorize the use of public housing funds for such purposes. Section 3 of the Act
              states that the term “operation” also means the financing of tenant programs and
              services for families residing in low-income housing projects. However, as stated
              previously, the audit found that no tenant progams or services could be reasonably
              attributed to the questioned costs.

Comment 11 The Authority’s position that it funded the credit union under account number
           1406 (Operations) in its annual plan, and therefore, it did not need to disclose it
           specifically in its annual plan, is misleading because under the 1406 account the
           Authority was required to comply with the provisions of its annual contributions
           contract. Since the Authority did not comply with its annual contributions
           contract the expenditures were ineligible. If the Authority had reported the
           expenditures under account number 1408 (Management Improvements), it would
           have been required to specifically list the credit union and HUD would have
           questioned the eligibility of these proposed expenditures. HUD capital fund
           regulations at 24 CFR [Code of Federal Regulations] 968.112(g) do not include
           financing a credit union as an eligible activity. Therefore, regardless of the source
           of funds used, either operating funds or capital funds, the Authority did not have
           the right to finance the credit union. Additionally, regulations at 24 CFR [Code of
           Federal Regulations] 903.7 require the Authority to provide a statement in its
           annual plan describing any programs it coordinated, promoted or provided for the
           enhancement of the economic and social self-sufficiency of assisted families,
           including programs provided or offered as a result of its partnership with other
           entities. The Authority included no such statement or disclosure to HUD in its
           annual plan regarding the credit union.

Comment 12 As stated in the report, the Authority’s executive director violated the
           consolidated annual contributions contract’s conflict-of-interest restrictions by
           improperly receiving consulting fees for his work with the credit union (paid from
           public housing funds) and a salary as an employee of the Authority. From
           November 2000 to May 2001, the executive director, besides being an employee
           of the Authority, was also receiving payments pursuant to a consulting contract
           which constituted a conflict-of-interest situation. The initial underlying contract
           under which the executive director’s services as a consultant were procured states
           as part of its justification that the Authority does not have anyone available
           among its professional staff with the requisite expertise necessary to appropriately
           pursue its interests in the creation of a banking and banking-related service
           facility. This justification for the consulting contract was no longer valid after the
           consultant was hired by the Authority.

Comment 13 The report actually states that during the executive director’s concurrent tenures,
           the Authority improperly disbursed low-rent public housing operating funds to
           benefit the credit union. We believe this improper use of HUD funds continued



                                               30
              the conflict-of-interest situation. While the Act does allow individuals to hold
              positions in both organizations, we believe this arrangement should have been
              disclosed to HUD and a waiver requested in light of the fact that during the
              executive director’s concurrent tenures as executive director and president and
              chief executive officer of the credit union, the Authority continued to make
              significant questionable disbursements for the benefit of the credit union.

Comment 14 As stated in the report, the consolidated annual contributions contract prohibits
           conflict-of-interest situations involving contracts with employees also making the
           disbursements for the benefit of the credit union ineligible.

Comment 15 The Authority’s concerns are unwarranted as the audit was performed in
           accordance with generally accepted government auditing standards and the
           conclusions in the report are supported by relevant and substantial evidence
           documented in the audit workpapers. As such, the audit team collectively
           possessed adequate professional proficiency for the tasks required and was
           properly supervised. Additionally, at the exit conference we answered all of the
           questions posed by the Authority’s attorneys regarding our audit process and our
           audit scope and methodology. We also answered several detailed questions the
           attorneys posed regarding the qualifications and experience of the audit staff.
           Lastly, we informed the attorneys that we would provide any additional
           information they may require. We did not receive any further inquiries from the
           attorneys in this regard.

Comment 16 The issue was addressed as a minor finding due to the relatively small dollar
           amount involved and the Authority’s agreement to take action to address the
           issue. The purpose of the draft report is to encourage feedback and provide
           latitude to adjust wording, tone or findings, and if necessary, issue a revised draft
           audit report. This change was noted on page 10 of the revised report provided to
           the Authority on August 16, 2007.

Comment 17 Although the Authority states that it objects to and disagrees with the minor
           finding, we noted that the Authority also stated on pages 12 and 13 of its response
           that it agreed that monthly reimbursement of all due-to/due-from accounts was a
           good business practice and that it has implemented a monthly process for doing
           so. The intent of the finding and recommendations was for the Authority to
           strengthen internal controls for the use HUD funds. By taking action to settle the
           interfund accounts monthly, the Authority will satisfy the intent of the minor
           finding and recommendations.

Comment 18 The Authority acknowledges that it was not making interfund reimbursements on
           a monthly basis and it also states that HUD generally accepts a due-to/due-from
           method of distributing expenses as long as reimbursements are made on a timely
           basis. The audit showed that controls needed to be strengthened to ensure that
           interfund accounts were settled monthly and the Authority agreed that monthly




                                               31
              reimbursement of all due-to/due-from accounts was a good business practice and
              it has implemented a monthly process for doing so.

Comment 19 The Authority reconciled its interfund accounts during the year and at year end,
           although not always monthly. For example, during the audit, the Authority’s fee
           accountant informed us interfund balances were not reconciled for January and
           February 2007 until March 2007 due to the year-end close-out process. Also, we
           requested current interfund balances and activity detail but it could not be
           provided. The fee accountant informed us that there wasn’t a way to provide a
           current interfund balance. The balances could only be provided for months for
           which the general ledger had been posted. As the Authority stated in its response,
           the interfund reimbursements were not being made monthly which was our main
           concern with this issue. Our intention was for the Authority to strengthen its
           internal controls to ensure that it reimbursed the interfund accounts monthly. As
           noted in our comments above, after the exit conference we removed this finding
           from the draft audit report and addressed the issue as a minor finding.

Comment 20 The Authority’s low-rent public housing consolidated annual contributions
           contract states that the Authority may withdraw funds from the general fund only
           for the payment of the costs of development and operation of the projects under
           the contract with HUD, the purchase of investment securities as approved by
           HUD, and such purposes as may be specifically approved by HUD. It further
           states that program funds are not fungible and that withdrawals shall not be made
           for a specific program in excess of the funds available for the program. The
           capital fund program is another federal program, but the purpose of the funds is
           not the same as public housing operating funds. Public housing operating funds
           are primarily for operating and management expenses of public housing projects.
           Capital funds are primarily for developing, financing, and modernizing public
           housing projects.

Comment 21 Although the Authority has implemented a process, it needs to develop and
           implement controls to ensure that interfund accounts are settled monthly. The
           following events illustrate the need for the controls. The Authority’s fee
           accountant informed us that in May 2007 it notified an Authority manager that
           she needed to make a reimbursement to settle the interfund balance for the
           Section 8 program, but the reimbursement did not occur. The manager said she
           never received the e-mail message to initiate the reimbursement. As a result, a
           reimbursement for the months of May and June 2007 occurred in June 2007. As
           noted in our comments above, we considered the information the Authority
           provided at the exit conference and decided to address this issue as a minor
           finding, as appropriate, and issued a revised draft audit report.

Comment 22 The Authority’s consolidated annual contributions contract states that the
           Authority may withdraw funds from the general fund only for the payment of the
           costs of development and operation of the projects under the contract with HUD,
           the purchase of investment securities as approved by HUD, and such purposes as



                                             32
              may be specifically approved by HUD. It further states that program funds are
              not fungible and that withdrawals shall not be made for a specific program in
              excess of the funds available for the program. Further, in its response, the
              Authority stated that HUD expects interfund reimbursements to be made on a
              timely basis and it also agreed that monthly reimbursement of all due-to/due-from
              accounts was a good business practice. Moreover, the Authority stated that it has
              implemented a monthly reimbursement process to address this issue.

Comment 23 The term “funds to be put to better use” relates to amounts that would be used
           properly, effectively, or efficiently by implementing our recommended corrective
           action. In this instance, we estimated the amount of funds to be put to better use
           by taking the average amount of funds owed to the low-rent public housing
           program over a three-year period. However, as noted in our comments above, we
           considered the information the Authority provided at the exit conference and
           decided to address this issue as a minor finding, as appropriate, and issued a
           revised draft audit report.

Comment 24 As noted in our comments above, we considered the information the Authority
           provided at the exit conference and issued a revised draft audit report.
           Additionally, at the Authority’s request we have included all of its comments in
           this report, including those related to the minor finding, in their entirety.




                                              33
